Department of Health & Human Services
            OFFICE OF
       INSPECTOR GENERAL




  MOST EARLY HEAD START
TEACHERS HAVE THE REQUIRED
     CREDENTIALS, BUT
     CHALLENGES EXIST




                   Daniel R. Levinson
                    Inspector General

                     August 2011
                    OEI-05-10-00240
      E X E C U T I V E                                  S U M M A R Y


                      OBJECTIVES
                      1. To determine the extent to which Early Head Start teachers had the
                         required credentials.
                      2. To determine the extent to which Early Head Start programs
                         employed only teachers with the required credentials.
                      3. To describe the activities and challenges of Early Head Start
                         programs in employing credentialed and trained teachers.


                      BACKGROUND
                      In 2007, Congress reauthorized the Head Start Act and created the first
                      law governing the credentialing and training of center-based Early
                      Head Start teachers. The Head Start Act requires that all center-based
                      Early Head Start teachers have a minimum of a child development
                      associate (CDA) credential and have been trained (or have completed
                      equivalent coursework) in early childhood development by
                      September 30, 2010. It also requires that all Early Head Start teachers
                      have training (or have completed equivalent coursework) in early
                      childhood development with a focus on infant and toddler development
                      by September 30, 2012.
                      Federal funding of Early Head Start dramatically increased in 2009.
                      The American Recovery and Reinvestment Act of 2009 (Recovery Act)
                      gave the Administration for Children & Families (ACF) an additional
                      $1.1 billion to expand Early Head Start services. ACF allocated the
                      Recovery Act funds to both new and established grantees, resulting in
                      an increase from 714 grantees in the 2008–2009 program year to
                      992 grantees in the 2009–2010 program year.
                      For this study, we reviewed credentials from a sample of 221 Early
                      Head Start programs operating in the 2010–2011 program year. In
                      addition, we surveyed the same sample of programs about the
                      challenges to meeting the education and training requirements for
                      teachers.


                      FINDINGS
                      Overall, 81 percent of Early Head Start teachers had the required
                      credentials. Although 19 percent of teachers did not have the required
                      credentials, more than half of these teachers were pursuing them.
                      Teachers from preexisting programs were more likely to have the

    OEI-05-10-00240   M O S T E A R LY H E A D S TA R T T E A C H E R S H AV E   THE   REQUIRED CREDENTIALS, BUT CHALLENGES EXIST   i
E   X   E C    U T    I     V     E           S     U M          M      A      R Y


                          required credentials than teachers from new programs developed using
                          Recovery Act funds.
                          Approximately one-third of Early Head Start programs employed
                          only teachers with the required credentials. Thirty-five percent of
                          programs employed only teachers with the required credentials,
                          whereas 65 percent of programs employed at least one teacher without
                          the required credentials. Overall, more than half of the teachers
                          employed by 89 percent of programs had the required credentials. In
                          3 percent of programs, 25 percent of teachers or fewer had the required
                          credentials.
                          Nearly all Early Head Start programs reported requiring teachers to
                          complete training. Ninety-six percent of programs reported requiring
                          teachers to complete ongoing training. Programs identified training
                          topics in the areas of infant and toddler development, safety, and
                          communication methods.
                          Early Head Start programs reported challenges to employing only
                          teachers with the required credentials and to training teachers.
                          Most programs reported challenges to either employing only teachers
                          with the required credentials or to training teachers.
                          Eighty-three percent reported challenges to employing only teachers
                          with the required credentials because they could not find teachers with
                          credentials. In addition, programs most commonly reported finding
                          substitutes and managing work schedules as challenges to training
                          teachers. In rural areas, other challenges to training teachers appeared
                          to be more prevalent.


                          RECOMMENDATIONS
                          Work with Early Head Start programs to ensure that all teachers
                          have the required credentials. ACF should ensure that all Early Head
                          Start programs employ only teachers with the required credentials.
                          ACF could:
                              •       provide additional support to programs that were newly
                                      developed using Recovery Act funds,
                              •       identify and share strategies used by programs that employed
                                      only teachers with the required credentials, or
                              •       work with programs that employ teachers without the required
                                      credentials to develop and implement an action plan.


    OEI-05-10-00240       M O S T E A R LY H E A D S TA R T T E A C H E R S H AV E   THE   REQUIRED CREDENTIALS, BUT CHALLENGES EXIST   ii
E   X   E C    U T    I     V     E           S     U M          M      A      R Y


                          Provide guidance to programs about training teachers.


                          AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                          RESPONSE
                          ACF concurred with our recommendations. ACF stated that it plans to
                          issue an information memorandum to provide additional guidance for
                          programs on teacher credentials and qualifications. In addition, ACF
                          stated that it could provide guidance about teacher training, but that it
                          could not require a certain number of training hours without a
                          regulatory change. We encourage ACF to issue both the planned
                          information memorandum and guidance about teacher training. We did
                          not make any changes to the report based on ACF’s comments. For the
                          full text of ACF’s comments, see Appendix B.




    OEI-05-10-00240       M O S T E A R LY H E A D S TA R T T E A C H E R S H AV E   THE   REQUIRED CREDENTIALS, BUT CHALLENGES EXIST   iii
   T A B L E           O F           C O N T E N T S



         EXECUTIVE SUMMARY .....................................i



         INTRODUCTION ............................................ 1



         F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
                    Overall, 81 percent of Early Head Start teachers had the
                    required credentials . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

                    Approximately one-third of Early Head Start programs
                    employed only teachers with the required credentials. . . . . . . . . . 14

                    Nearly all Early Head Start programs reported requiring
                    teachers to complete training . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

                    Early Head Start programs reported challenges to employing only
                    teachers with the required credentials and to training teachers . 16



         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
                    Agency Comments and Office of Inspector General Response. . . . 21

         A P P E N D I X . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
                    A: Estimates and Confidence Intervals . . . . . . . . . . . . . . . . . . . . . 22

                    B: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26



         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31
I   N T   R O D U C T I O N
       I N T R O D U C T I O N


                      OBJECTIVES
                      1. To determine the extent to which Early Head Start teachers had the
                         required credentials.
                      2. To determine the extent to which Early Head Start programs
                         employed only teachers with the required credentials.
                      3. To describe the activities and challenges of Early Head Start
                         programs in employing credentialed and trained teachers.


                      BACKGROUND
                      In 2007, Congress reauthorized the Head Start Act and created the first
                      law governing the credentialing and training of center-based Early
                      Head Start teachers.1 The Head Start Act requires that all teachers
                      working for center-based Early Head Start grantees have a minimum of
                      a child development associate (CDA) credential and have been trained
                      (or have completed equivalent coursework) in early childhood
                      development by September 30, 2010.2 It also requires that all Early
                      Head Start teachers have training (or have completed equivalent
                      coursework) in early childhood development with a focus on infant and
                      toddler development by September 30, 2012. 3 Hereinafter, the part of
                      the law referring to teacher credentials will be called the “education
                      requirement” and the parts of the law referring to teacher training will
                      be called the “training requirement.”
                      Overview of the Early Head Start Program
                      Established in 1994, Early Head Start provides comprehensive services
                      to low-income pregnant mothers and infants and toddlers from birth to
                      age 3. Early Head Start’s mission is to promote healthy prenatal
                      outcomes, enhance the development of infants and toddlers, and
                      promote healthy family functioning. In the 2009–2010 program year,
                      the Administration for Children & Families (ACF) served more than




                         1 Improving Head Start for School Readiness Act of 2007, P.L. 110-134 (Head Start Act)

                      § 645A(h), 42 U.S.C. § 9840a.
                         2 Ibid.

                         3 Ibid.




    OEI-05-10-00240   M O S T E A R LY H E A D S TA R T T E A C H E R S H AV E   THE   REQUIRED CREDENTIALS BUT CHALLENGES EXIST   1
I   N T    R O        D   U      C T         I    O      N


                              100,000 infants and toddlers through almost 1,000 Early Head Start
                              grantees. 4, 5
                              Early Head Start grantees may include local public agencies, private
                              nonprofit and for-profit organizations, Native American tribes, and
                              school systems. Many Early Head Start grantees subcontract to
                              delegate agencies. Grantees have a formal contractual relationship
                              with delegate agencies and allow delegate agencies to independently
                              manage Early Head Start centers. However, grantees are ultimately
                              responsible for overseeing and managing the Early Head Start centers,
                              including ensuring the credentialing and training of teachers.
                              Early Head Start grantees and delegate agencies may deliver:
                              (1) center-based services, (2) home-based services, (3) both center- and
                              home-based services, or (4) alternative services. In center-based
                              services, teachers work with children in a traditional classroom setting.
                              In home-based services, staff members support children and families in
                              their homes by meeting language development, health, and
                              developmental needs. Alternative services may include a local option
                              that tests new approaches to delivering Early Head Start services or a
                              family childcare option.
                              In the 2009–2010 program year, approximately 54 percent of Early
                              Head Start grantees delivered both center- and home-based services,
                              approximately 23 percent delivered solely center-based services, and
                              approximately 16 percent delivered solely home-based services. 6 The
                              remaining 7 percent of grantees delivered alternative services. 7
                              Federal funding of Early Head Start dramatically increased in 2009.
                              The American Recovery and Reinvestment Act of 2009 (Recovery Act)
                              gave ACF an additional $1.1 billion to expand Early Head Start
                              services.8 This money was distributed through the end of fiscal year
                              (FY) 2010. In comparison, Early Head Start’s original FY 2009 budget
                              was $710 million.9


                                 4 Office of Inspector General (OIG) analysis of 2010 ACF administrative data.
                                 5 The program year is the 12-month period in which Early Head Start provides services.

                              Program years can start at any time from August 1 through September 15.
                                 6 OIG analysis of 2010 ACF administrative data.

                                 7 Ibid.

                                 8 Recovery Act, P.L. 111-5, (Feb. 17, 2009), Title VII.

                               9 Department of Health & Human Services (HHS), Fiscal Year 2010 Budget in Brief,

                              May 7, 2009. Accessed at http://www.dhhs.gov on February 10, 2011.



    OEI-05-10-00240           M O S T E A R LY H E A D S TA R T T E A C H E R S H AV E   THE   REQUIRED CREDENTIALS BUT CHALLENGES EXIST   2
I   N T    R O        D   U      C T         I    O      N


                              ACF allocated the Recovery Act funds to both established and new
                              Early Head Start grantees, resulting in an increase from 714 grantees
                              and delegate agencies in the 2008–2009 program year to 992 grantees
                              and delegate agencies in the 2009–2010 program year. 10 Using these
                              funds, Early Head Start grantees and delegate agencies served
                              approximately 48,000 new children. 11 Overall, the Recovery Act allowed
                              Head Start and Early Head Start grantees and delegate agencies to hire
                              an estimated 7,000 new teachers.12
                              Hereinafter, Early Head Start grantees and delegate agencies that
                              existed prior to the Recovery Act are referred to as “preexisting.” Early
                              Head Start grantees and delegate agencies created through Recovery
                              Act funds are referred to as “new.”
                              Early Head Start Teacher Qualification Requirements
                              Education requirement. ACF promulgated regulations exclusive to Early
                              Head Start teachers in 1996. The regulations state that any teacher
                              working with infants and toddlers must obtain a CDA specializing in
                              infants and toddlers within 1 year of hire. 13
                              These regulations were superseded by the Head Start reauthorization.
                              The reauthorization had language that was specific to Early Head Start
                              teachers and removed the 1-year grace period. While the
                              reauthorization is clear that teachers must receive a CDA, it removed
                              the specialization of an infant and toddler CDA. 14 After the
                              reauthorization, Early Head Start programs had to either ensure that
                              teachers currently employed had or would receive credentials by the
                              2010 deadline or hire new teachers who already had credentials.
                              Teachers pursuing a CDA must meet specific requirements. The
                              Council for Professional Recognition (the Council) administers the CDA
                              national credentialing program. Teachers are eligible for a CDA from
                              the Council if they have a high school diploma or equivalent, 480 hours
                              of childcare experience, and 120 hours of childcare education.

                                 10 OIG analysis of 2009 and 2010 ACF administrative data.

                                11 HHS, FY 2012, ACF, Justification of Estimates for Appropriations Committees.

                              Accessed at http://www.acf.hhs.gov on May 4, 2011.
                                 12 Ibid.

                                 13 45 CFR § 1304.52(f).

                                14 The Head Start reauthorization also addressed training requirements for Early Head
                              Start home-based staff and education requirements for Head Start teachers, teaching
                              assistants, and education coordinators.



    OEI-05-10-00240           M O S T E A R LY H E A D S TA R T T E A C H E R S H AV E   THE   REQUIRED CREDENTIALS BUT CHALLENGES EXIST   3
I   N T    R O        D   U      C T         I    O      N


                              Applicants must submit proof of their childcare experience and
                              recommendations from students’ parents to the Council. After
                              reviewing applications, Council staff interview applicants and
                              administer a written test before awarding the CDA. 15
                              ACF recognizes other credentials as having met the education
                              requirement if they are equivalent to or more advanced than a CDA.
                              For example, some States or universities may award diplomas or
                              certificates in early childhood education. ACF refers to these diplomas
                              and certificates as “alternative credentials” and recognizes them if they
                              are approved by an expert panel within ACF.16 In addition, ACF
                              considers associate’s, bachelor’s, or advanced degrees in early childhood
                              education (or a related field with equivalent coursework) as credentials
                              that equal or exceed a CDA. 17 Hereinafter, any credential that meets or
                              exceeds a CDA will be referred to as a “required credential.”
                              Training requirements. ACF has not provided guidance on the requirement
                              that all teachers have training in early childhood education by
                              September 2010 or the requirement that all teachers have training in
                              infant and toddler development by September 2012. In the 1996
                              regulations, ACF offered general guidance on training for Early Head
                              Start teachers.18 The regulations state that Early Head Start teachers
                              must be trained in subject areas such as infant and toddler development,
                              safety issues, and communication methods.19 However, ACF has not
                              provided guidance regarding the number of hours or frequency of training.
                              ACF Support for Teacher Qualifications
                              ACF provides funds to help improve teacher qualifications. ACF
                              provides a training budget and additional quality improvement funds to
                              grantees when available. Grantees may use this money to fund the
                              credentialing or training of Early Head Start teachers. The Recovery
                              Act made nearly $354 million available in quality improvement


                                 15 Council for Professional Recognition, CDA Credential, CDA Assessment System.

                              Accessed at http://www.cdacouncil.org on June 22, 2010.
                                16 ACF, Review and Approval of Child Development Associate (CDA)

                              Equivalent/Alternative Training Programs by State, December 20, 2006. Accessed at
                              http://www.acf.hhs.gov on February 25, 2011.
                                17 ACF, Policy Clarifications-J-Staffing and Program Options-OHS-PC-J-033,

                              April 29, 2008. Accessed at http://www.acf.hhs.gov on February 10, 2011.
                                 18 45 CFR § 1304.52(f).

                                 19 Ibid.




    OEI-05-10-00240           M O S T E A R LY H E A D S TA R T T E A C H E R S H AV E   THE   REQUIRED CREDENTIALS BUT CHALLENGES EXIST   4
I   N T    R O        D   U      C T         I    O      N


                              funding. 20 In addition, ACF funds Higher Education Partnership grants
                              for colleges and universities. These grants help develop early education
                              programs in colleges and universities and provide educational
                              opportunities for Early Head Start teachers working toward credentials.
                              Finally, Early Head Start teachers can apply for a student loan
                              forgiveness program.
                              ACF Oversight of Teacher Qualifications
                              ACF monitors Early Head Start teacher qualifications through the
                              Program Information Report (PIR), onsite monitoring, and the risk
                              management process.
                              The PIR. Annually, grantees report to ACF the highest degree or
                              credential of each teacher, as well as other program information. 21 In
                              addition, grantees report the number of staff enrolled in the degree or
                              credential program above what they currently hold (e.g., of teachers
                              that have a CDA, the number enrolled in an associate’s or bachelor’s
                              degree program). However, ACF does not require grantees to report
                              training that teachers received outside a credential or degree program.
                              Onsite monitoring. The Head Start Act established monitoring
                              requirements for all Head Start agencies, including Early Head Start. 22
                              The Head Start Act states that all grantees should receive a full review
                              at least once every 3 years and that new grantees should be reviewed
                              after their first year.
                              As part of the onsite monitoring visit, ACF reviews credential and
                              training documents. If a grantee has teachers without credentials
                              during the 2010–2011 monitoring cycle, ACF will indicate a concern in
                              the report and will review those grantees again at a later date. 23
                              Risk management process. ACF conducts the risk management process
                              annually with each grantee. 24 ACF staff and grantees use this process


                                 20 ACF,Head Start Funding Increase, ACF-PI-HS-09-06, May 12, 2009. Accessed at
                              http://www.acf.hhs.gov on May 4, 2011.
                                21 ACF, Early Childhood Learning and Knowledge Center, Program Information Report

                              (PIR). Accessed at http://eclkc.ohs.acf.hhs.gov on March 31, 2010.
                                 22 Head Start Act § 641A(c)(1)(A) and (B); 42 U.S.C. § 9836a(c)(1)(A) and (B).

                                 23 ACF,      Qualifications for Early Head Start Infant and Toddler Center-Based Staff,
                              ACF-IM-HS-10-06, October 27, 2010. Accessed at http://www.acf.hhs.gov on
                              February 10, 2011.
                                 24 ACF,Head Start Risk Management Process, ACF-IM-HS-08-06, February 5, 2008.
                              Accessed at http://www.acf.hhs.gov on February 15, 2011.



    OEI-05-10-00240           M O S T E A R LY H E A D S TA R T T E A C H E R S H AV E   THE   REQUIRED CREDENTIALS BUT CHALLENGES EXIST   5
I   N T    R O        D   U      C T         I    O      N


                              to identify grantees’ areas of strengths and needs for improvement.
                              ACF staff also work with grantees to develop an action plan for
                              identified areas of weakness, including the education requirement.
                              Related Reports
                              In a 2010 report responding to Recovery Act mandates, the Government
                              Accountability Office (GAO) found that the percentage of Early Head
                              Start teachers with credentials decreased between 2009 and 2010. 25 In
                              addition, GAO reported that grantees cited finding and developing staff
                              as a significant challenge. 26
                              Both OIG and GAO have completed work related to qualifications of
                              Head Start teachers. A 2004 OIG report found that Head Start teacher
                              qualifications had increased over the years, but that disparities among
                              grantees existed in the percentage of degreed teachers.27 In a
                              2003 report, GAO found that Head Start appeared to meet a 1998
                              mandate that 50 percent of Head Start teachers nationwide have a
                              minimum of an associate degree in early childhood education or a
                              related field by September 30, 2003.28 However, GAO found that the
                              PIR data did not capture whether a teacher with the required
                              credentials was in each classroom. 29 These reports did not focus on
                              Early Head Start teachers.


                              METHODOLOGY
                              Through a review of teacher credentials from a sample of randomly
                              selected Early Head Start grantees and their delegate agencies
                              (hereinafter referred to as programs), this study determined the extent
                              to which: (1) teachers had the required credentials and (2) programs
                              employed only teachers with the required credentials. In addition, we
                              conducted a survey of the same programs to describe the activities and



                                 25 GAO, Recovery Act: Head Start Grantees Expand Services, but More Consistent
                              Communication Could Improve Accountability and Decisions About Spending, GAO-11-166,
                              December 2010.
                                 26 Ibid.

                                 27 OIG, Status of Efforts to Increase the Qualifications of Head Start Teachers,

                              OEI-07-01-00560, January 2004.
                                28 GAO, Head Start: Increased Percentage of Teachers Nationwide Have Required
                              Degrees, but Better Information on Classroom Teachers’ Qualifications Needed, GAO-04-05,
                              October 2003.
                                 29 Ibid.




    OEI-05-10-00240           M O S T E A R LY H E A D S TA R T T E A C H E R S H AV E   THE   REQUIRED CREDENTIALS BUT CHALLENGES EXIST   6
I   N T    R O        D   U      C T         I    O      N


                              challenges of Early Head Start programs trying to meet the education
                              and training requirements.
                              Scope
                              This study focused only on Early Head Start center-based programs
                              within the 50 States and the District of Columbia operating in the
                              2010–2011 program year. It excluded Early Head Start programs from
                              U.S. territories. It also excluded Head Start programs, as Head Start
                              teachers have separate education requirements.
                              In addition, this study focused on whether Early Head Start
                              center-based teachers had credentials. It did not focus on the
                              credentials of other Early Head Start staff, including home-based staff,
                              as the education requirements do not apply to them.
                              Finally, because of limited ACF guidance about the training
                              requirement, this study did not determine whether grantees complied
                              with the 2010 training requirement in early childhood development.
                              However, we surveyed programs to identify activities and challenges in
                              meeting the training requirement.
                              Sample Selection
                              Program sampling frame. We developed a sampling frame of programs
                              that offered center-based Early Head Start services and were operating
                              in the 2010–2011 program year. ACF provided a list of 763 programs
                              that matched these criteria. We removed 20 programs from the
                              sampling frame because of their location in territories, 1 program
                              because it did not match the ZIP Code approximation file we used for
                              stratifying samples, and 5 programs that pretested our instruments in
                              the early stages of the study. Our final sampling frame consisted of
                              737 programs offering Early Head Start center-based services.
                              Sample selection. After creating the sampling frame of 737 programs, we
                              selected a stratified random sample of 223 programs. We stratified by
                              rural and urban status and by number of teachers per program. We
                              stratified by rural and urban status because anecdotal evidence
                              suggested that urban programs might be more likely to meet the
                              education requirement than rural programs. We stratified by number
                              of teachers to improve the precision of our estimates.




    OEI-05-10-00240           M O S T E A R LY H E A D S TA R T T E A C H E R S H AV E   THE   REQUIRED CREDENTIALS BUT CHALLENGES EXIST   7
I   N T    R O        D   U      C T         I    O      N


                              To stratify by rural and urban status, we used the 2004 Rural Urban
                              Commuting Area (RUCA) codes.30 We matched the ZIP Code of each
                              Early Head Start program to 1 of 10 primary codes using RUCA’s ZIP
                              Code approximation file. We considered programs to be rural if they
                              were located in an area with a population less than or equal to 49,999
                              (RUCA primary codes 4–10). We considered programs to be urban if
                              they were located in an area with a population greater than 49,999
                              (RUCA primary codes 1–3). This is considered the standard split for
                              rural and urban areas according to the RUCA definitions. Thirty-three
                              percent of programs in the sampling frame were rural and 67 percent
                              were urban.
                              To stratify by number of teachers, we obtained data about funded
                              enrollment for the 2010–2011 program year from ACF. Then, to
                              estimate the number of teachers, we assumed a 1:4 teacher-student
                              ratio in classrooms, based on program requirements. 31 Table 1 shows
                              the population of programs within the sampling frame, the four strata,
                              and the final number of programs selected in each stratum.




                                30 RUCA codes classify U.S. Census tracts by population density, urbanization, and daily

                              commuting. The ZIP Code approximation file was developed for use with health care data
                              sets. The 2004 version is the most recent version available. Rural Health Research Center,
                              About Us: RUCA Origins. Accessed at https://depts.washington.edu/uwruca/ruca-
                              about.php on February 22, 2011.
                                31 45 CFR 1304.52(g)(4) describes the Early Head Start teacher-student ratio. In
                              summary, it states that programs must ensure that each teacher has responsibility for no
                              more than four infants and toddlers.



    OEI-05-10-00240           M O S T E A R LY H E A D S TA R T T E A C H E R S H AV E   THE   REQUIRED CREDENTIALS BUT CHALLENGES EXIST   8
        I   N T     R O       D   U      C T         I    O      N



    Table 1: Sample Stratification

                                                                                                                                               Number of
 Stratum                                                                                                                     Program
                     Stratum Description                                                                                                       Programs
 Number                                                                                                                    Population
                                                                                                                                                Selected


    1                  Urban programs with estimated number of teachers < 150                                                     481               110

    2                  Urban programs with estimated number of teachers • 150                                                      14                   14

    3                  Rural programs with estimated number of teachers < 70                                                      238                   95

    4                  Rural programs with estimated number of teachers • 70                                                        4                   4

            Total                                                                                                                737                223

Source: OIG sample stratification, 2010.



                                      Although we did not stratify based on whether a program received
                                      Recovery Act funds, we collected these data from ACF.
                                      Seventy-seven percent of the programs in the sampling frame were
                                      preexisting programs and the remaining 23 percent were new programs.
                                      Data Collection
                                      We emailed the request for teacher credentials and the survey
                                      regarding training to the 223 sampled programs in October 2010. We
                                      made at least two followup attempts by telephone and one by
                                      signature-required certified mail. Data collection lasted through
                                      November 2010. During data collection, we learned that one program
                                      no longer offered center-based services and another was not yet in
                                      operation. Our final sample consisted of 221 programs.
                                      To ensure a timely and accurate analysis, we requested teacher
                                      credentials directly from programs rather than relying on PIR. PIR
                                      data for the 2010–2011 program year will not be available until late
                                      2011 or early 2012. In addition, previous OIG reports cited concerns
                                      about PIR data. 32, 33
                                      Teacher credentials. From each program, we requested a master list of
                                      all Early Head Start teachers and one document supporting one of the
                                      following for each teacher: (1) highest level of completed education; or
                                      (2) proof of enrollment in a CDA, certificate, or degree program.


                                           32 OIG,    Enrollment Levels in Head Start, OEI-05-06-00250, April 2007.
                                           33 OIG, Status of Efforts to Increase the Qualifications of Head Start Teachers.




            OEI-05-10-00240           M O S T E A R LY H E A D S TA R T T E A C H E R S H AV E   THE   REQUIRED CREDENTIALS BUT CHALLENGES EXIST    9
I   N T    R O        D   U      C T         I    O      N


                              Documents to support the highest level of completed education could
                              include: diploma, transcript indicating degree received, CDA, or
                              alternative credential. Documents to support a teacher’s pursuit of a
                              degree or certificate could include: transcript, CDA application, or
                              receipt of paid tuition. Of the 221 programs, 209 responded to the
                              request for teacher credentials, for a program response rate of
                              95 percent.
                              We estimate that the teacher response rate was 98 percent. The
                              209 programs that responded indicated that they collectively employed
                              3,799 teachers. Using 2010 PIR data, we estimated that, collectively,
                              75 teachers were employed at the 12 programs that did not respond to
                              our request, for a total of 3,874 teachers.
                              Survey. We also requested that each program complete a survey
                              regarding the activities and challenges to ensuring the credentialing
                              and training of teachers. Of the 221 programs, 215, or 97 percent,
                              responded.
                              Data Analysis
                              Teacher credentials. To determine the extent to which Early Head Start
                              teachers had the required credentials and programs employed only
                              teachers with required credentials, we reviewed teacher credential
                              documents.
                              We determined the types of credentials that teachers had. Our analysis
                              included all 3,799 teachers working for the 209 programs that
                              responded to the request. We considered a teacher to have a credential
                              if the teacher had a CDA, a college degree, or any alternative credential.
                              We considered a teacher as not having a credential if the program did
                              not submit documentation for an individual teacher or if the teacher
                              had only a high school equivalency. We calculated the overall
                              percentage of teachers that had credentials.
                              When teachers did not have credentials, we determined whether they
                              were pursuing them. We considered teachers to be pursuing credentials
                              if the documents provided indicated that they had applied for a CDA or
                              were enrolled in a certificate or degree program in 2010.
                              We considered a program to have met the requirement if all of its
                              teachers had credentials. Our analysis of programs included the
                              209 programs that responded to our documentation request. We
                              calculated the percentage of programs that employed only teachers with
                              required credentials and the percentage that did not. For programs


    OEI-05-10-00240           M O S T E A R LY H E A D S TA R T T E A C H E R S H AV E   THE   REQUIRED CREDENTIALS BUT CHALLENGES EXIST   10
I   N T    R O        D   U      C T         I    O      N


                              that did not employ only teachers with required credentials, we
                              determined the percentage of teachers within those programs that had
                              required credentials.
                              Survey. To analyze programs’ responses, we tallied responses to identify
                              what programs were doing to meet the education and training
                              requirements and any challenges that programs faced. We also
                              reviewed programs’ open-ended responses to identify approaches to
                              training. We used the results of this analysis to describe the activities
                              and challenges of Early Head Start programs trying to meet the
                              education and training requirements.
                              Statistical tests and projections. For both teacher credentials and the
                              training survey, we determined whether there were any differences by
                              rural and urban status and by new and preexisting status. We used
                              appropriate tests to determine whether any differences were
                              statistically significant. We determined statistical significance based on
                              a 95-percent confidence level.
                              In addition, we projected all results to all 737 Early Head Start
                              center-based programs operating in the 2010–2011 program year and
                              all teachers within those programs. See Appendix A for a list of
                              95-percent confidence intervals for all statistical projections.
                              Data Limitations
                              We did not determine whether alternative credentials met or exceeded
                              the CDA requirement. Although ACF publishes a list of credentials
                              that meet or exceed the CDA requirement, ACF staff acknowledge that
                              this list is not up to date. Therefore, we accepted all alternative
                              credentials.
                              In addition, we did not determine whether the subject area of a college
                              degree was related to early childhood education. ACF has not defined
                              what subject areas are related to early childhood education. To be as
                              inclusive as possible, we accepted all degrees as meeting and exceeding
                              a CDA, regardless of the subject areas.
                              Finally, we based our analysis of teacher credentials on documents
                              submitted by the program. Some teachers may not have provided
                              their credentials to their program. During onsite monitoring visits,
                              ACF reviews only credentials that programs keep on file. We
                              assumed that programs sent us all the teachers’ credentials that were
                              on file.



    OEI-05-10-00240           M O S T E A R LY H E A D S TA R T T E A C H E R S H AV E   THE   REQUIRED CREDENTIALS BUT CHALLENGES EXIST   11
I   N T    R O        D   U      C T         I    O      N


                              Standards
                              This study was conducted in accordance with the Quality Standards for
                              Inspection and Evaluation issued by the Council of the Inspectors
                              General on Integrity and Efficiency.




    OEI-05-10-00240           M O S T E A R LY H E A D S TA R T T E A C H E R S H AV E   THE   REQUIRED CREDENTIALS BUT CHALLENGES EXIST   12
                                  F I N D I N G S

   Overall, 81 percent of Early Head Start teachers                                    Eighty-one percent of Early Head
                       had the required credentials                                    Start teachers had credentials that
                                                                                       were equivalent to or exceeded a
                                                   CDA. The Head Start Act required all Early Head Start teachers to
                                                   have credentials that were equivalent to or exceeded a CDA by
                                                   September 30, 2010.
                                                   Teachers from preexisting Early Head Start programs were more likely
                                                   to have the required credentials than teachers from new programs, at
                                                   82 percent and 73 percent, respectively.34 This difference may be due in
                                                   part to the shorter time between new programs’ start dates and the
                                                   deadline. When the Head Start reauthorization was enacted in 2007,
                                                   preexisting programs had nearly 3 years either to hire teachers with the
                                                   required credentials or to ensure that teachers without credentials
                                                   obtained them by the deadline. However, new programs had less than a
                                                   year to ensure that all teachers had the required credentials, as the first
                                                   distribution of Recovery Act funds occurred in November 2009.
                                                   Teachers had a variety of credentials. Twenty-one percent had CDAs.
                                                   Forty-five percent had college degrees that were more advanced than a
                                                   CDA, such as associate’s, bachelor’s, or advanced degrees.
                                                   Fifteen percent had alternative credentials aside from a college degree
                                                   or a CDA. See Chart 1 for a breakdown of the education credentials.
 Chart 1: Education Credentials of Early Head Start Teachers

                              30
     Percentage of Teachers




                                                                                                                     24
                              25                             21
                                         19                                                                                            19
                              20
                                                                                         15
                              15
                              10
                               5                                                                                                                         2
                               0
                                   No Credential           CDA                    Alternative                 Associate's         Bachelor's        Advanced
                                                                                  Credential                   Degree              Degree            Degree

Source: OIG analysis of Early Head Start teacher credentials, 2011.




                                                      34 The difference was statistically significant at the 95-percent confidence level based on

                                                   a Wald chi-square test, p = 0.04.



                              OEI-05-10-00240      M O S T E A R LY H E A D S TA R T T E A C H E R S H AV E   THE   REQUIRED CREDENTIALS BUT CHALLENGES EXIST   13
F   I   N   D I       N G    S


                            More than half of teachers without the required credentials were
                            pursuing them
                            Although 19 percent of teachers did not have the required credentials,
                            56 percent of these teachers were pursuing them (11 percent of
                            teachers overall). Teachers were considered to be pursuing
                            credentials if they were enrolled in a degree program or applying for a
                            CDA. The remaining 44 percent of teachers without credentials were
                            not pursuing them (8 percent of teachers overall).
                            Teachers who were pursuing credentials may receive them in the near
                            future. For example, 21 percent of teachers without credentials were
                            applying for a CDA through the Council (4 percent of teachers
                            overall). This means that they will most likely receive their CDA
                            within a year’s time, assuming that they submitted all of the
                            paperwork correctly and that the Council awards the CDA in a timely
                            fashion.


    Approximately one-third of Early Head Start                  Thirty-five percent of programs
     programs employed only teachers with the                    employed only teachers with the
                          required credentials                   required credentials, whereas
                                                                 65 percent employed at least
                            one teacher without the required credentials.
                            Overall, more than half of the teachers at 89 percent of programs had
                            the required credentials. While approximately one-third of programs
                            employed only teachers with the required credentials, 76–99 percent
                            of teachers employed by another third of programs had the required
                            credentials. In 3 percent of programs, 25 percent or fewer teachers
                            had the required credentials, including 1 percent that did not employ
                            any teachers with the required credentials. See Chart 2 for a
                            breakdown of programs by percentage of teachers with the required
                            credentials.




    OEI-05-10-00240         M O S T E A R LY H E A D S TA R T T E A C H E R S H AV E   THE   REQUIRED CREDENTIALS BUT CHALLENGES EXIST   14
         F                    I       N   D I   N G    S


Chart 2: Programs by Percentage of Teachers With Required Credentials


                              40
                                                                                                                                                           35
                              35                                                                                                      32
     Percentage of Programs




                              30
                              25                                                                            22
                              20
                              15
                              10                                            8

                                  5             3

                                  0
                                            0–25%                     26–50%                          51–75%                       76–99%                100%
                                                                       Percentage of Teachers With Credentials

Source: OIG analysis of Early Head Start teacher credentials, 2011.




                    Nearly all Early Head Start programs reported                            Ninety-six percent of programs
                          requiring teachers to complete training                            reported requiring teachers to
                                                                                             complete ongoing training. This
                                                      indicates that almost all programs were attempting to ensure that all
                                                      teachers met the training requirements, which are: (1) that all teachers
                                                      have training in early childhood development by September 30, 2010;
                                                      and (2) that all teachers have training in infant and toddler
                                                      development by September 30, 2012.
                                                      In general, programs identified training topics that included early
                                                      childhood development, infant and toddler development, safety, and
                                                      communication methods. These topics correspond to the subject areas
                                                      identified in the 1996 regulations. In addition, the topics appear to
                                                      cover the broad areas outlined in the 2010 and 2012 training
                                                      requirements. Some specific examples provided by programs included:
                                                      developmentally appropriate curriculum, early literacy, sudden infant
                                                      death syndrome, first aid, cardiopulmonary resuscitation,
                                                      parent/teacher interaction, and responding to cultural diversity.
                                                      In addition, some programs also identified a variety of training topics
                                                      focused on administering the Early Head Start program. These topics
                                                      included State policies, procedures, and licensing requirements;
                                                      performance standards; and records management.

                              OEI-05-10-00240         M O S T E A R LY H E A D S TA R T T E A C H E R S H AV E   THE   REQUIRED CREDENTIALS BUT CHALLENGES EXIST   15
F    I   N   D I      N G    S


                            Although most programs required training for teachers, the number of
                            hours required varied widely. For example, programs’ survey responses
                            indicated a range of 0 to 140 hours per year, with a median of 15 hours
                            per year. Only 3 of the 184 programs indicated that they did not expect
                            teachers to receive any training hours in a year. This variation could
                            occur, in part, because ACF has not provided guidance to programs
                            regarding the amount of training that Early Head Start teachers must
                            have.
                            Early Head Start programs may look to Head Start requirements for
                            guidance about training. The Head Start Act defines the number of
                            hours of training that Head Start teachers must receive. Head Start
                            teachers have a yearly 15-hour in-service requirement. 35 In fact,
                            40 percent of Early Head Start programs required 15 hours of training
                            per year.

    Early Head Start programs reported challenges                    Most programs reported
      to employing only teachers with the required                   challenges either to employing
                                                                     only teachers with the required
               credentials and to training teachers
                                                                     credentials or to training
                            teachers. In fact, 85 percent of programs identified at least one
                            challenge to employing all teachers with the required credentials, and
                            87 percent of programs identified at least one challenge to training
                            teachers. In particular, programs reported challenges to credentialing
                            and training teachers because of problems with the workforce.
                            Eighty-three percent of Early Head Start programs reported challenges to
                            employing only teachers with the required credentials
                            Many programs reported that they could not find teachers with
                            credentials. In fact, there may not be a sufficient supply of teachers
                            with credentials. In an October 2010 information memorandum, ACF
                            recognized that Early Head Start programs may have difficulties
                            finding qualified teachers. ACF recognized that the additional pressure
                            to expand Early Head Start programs while finding teachers with
                            credentials may create a demand-supply imbalance. In particular, new
                            programs may have experienced challenges to finding teachers with
                            credentials as a result of this imbalance.
                            Programs described some of their challenges to finding teachers with
                            the required credentials. One program provided the following example:


                               35 Head Start Act § 648A(a)(5), 42 U.S.C. § 9843a(a)(5).




    OEI-05-10-00240         M O S T E A R LY H E A D S TA R T T E A C H E R S H AV E   THE   REQUIRED CREDENTIALS BUT CHALLENGES EXIST   16
F   I   N   D I       N G    S


                                      We could not find qualified applicants that came to us with the
                                      required credentials. We hired staff that had experience in Early
                                      Childhood infants and toddlers who already had some documented
                                      hours of training and some of the required hours for the CDA
                                      process.
                            Early Head Start programs most commonly identified finding substitutes
                            and managing work schedules as challenges to training teachers
                            Programs identified several challenges to training teachers. Most
                            commonly, programs reported difficulties finding substitutes and
                            managing work schedules as challenges to providing training, at
                            80 percent and 66 percent, respectively. 36
                            Programs indicated that if teachers attend training during the workday,
                            they must either close the program for the day or find substitute
                            teachers. Closing for the day can cause problems for parents who
                            depend on full-day services. On the other hand, hiring substitutes
                            raises concerns about continuity of care for the children. However, if
                            training is offered during evening or weekend hours to lessen the need
                            for substitutes, this creates a work-life imbalance for teachers. In many
                            cases, programs indicated that they must pay overtime for training
                            outside the scheduled workdays. In fact, 52 percent of programs stated
                            that they did not have the funds to pay teachers overtime to attend
                            training.
                            Programs described some of their challenges related to scheduling and
                            finding substitutes. One clearly described its difficulties in finding
                            substitutes and concerns about overtime pay: “Our pool of substitutes is
                            not adequate for staffing EHS [Early Head Start] classrooms when
                            [training] classes are offered during center hours of operation.
                            Therefore, we would have to pay overtime that would adversely impact
                            our budget.”
                            Another program discussed its concern that scheduling training causes
                            work schedule problems:
                                      Basically, classroom coverage is always a challenge. We want to
                                      have consistency and continuity of care for our children, so
                                      substitutes are not appropriate, unless they are regular and
                                      familiar with the children. Also, teachers are tired and have
                                      families. They want to go home in the evenings. Too many
                                      evening classes causes stress for them and their families.

                               36 Programs reported these challenges more frequently than others. This difference is

                            statistically significant at the 95-percent confidence level.



    OEI-05-10-00240         M O S T E A R LY H E A D S TA R T T E A C H E R S H AV E   THE   REQUIRED CREDENTIALS BUT CHALLENGES EXIST   17
     F    I    N    D I      N G          S


                                         Other challenges to training teachers appeared to be more prevalent in rural
                                         areas
                                         Although most programs identified at least one training challenge, some
                                         appeared to be more prevalent in rural areas. For example, overall,
                                         18 percent of programs reported challenges to identifying trainers for
                                         infant and toddler development in their areas. However, this challenge
                                         was heightened for programs in rural areas. Thirty-four percent of
                                         rural programs identified this as a challenge compared to 11 percent of
                                         urban programs. Table 2 compares challenges faced by rural and urban
                                         programs.

 Table 2: Programs That Identified Challenges, Overall and by Rural and Urban Status

 Challenge                                                                                                               Overall         Rural        Urban


    Difficulty finding substitute teachers                                                                                  80%           80%          80%

                                 F   I      N      D I        N G          S
    Difficulty managing training around work schedules                                                                      66%           71%          64%

    Inadequate funds to pay teachers overtime to attend training                                                            52%           59%          49%

    Difficulty finding appropriate programs                                                                                 30%          44%*          23%

    Lack of funds to pay outside trainers                                                                                   23%          34%*          17%

    Lack of trainers for infant and toddler development                                                                     18%          34%*          11%

    Lack of trainers for early childhood development                                                                        12%          24%*           6%

    Trainers’ refusal to travel to area                                                                                     10%          17%*           6%

* Indicates a statistically significant difference between rural and urban programs at the 95-percent confidence level.
Source: OIG analysis of program survey responses, 2011.

                                         Rural programs discussed unique challenges to providing training, such
                                         as distance between programs, travel time, and additional expenses
                                         related to travel. One program in particular provided a good overview
                                         of its difficulties trying to ensure that teachers receive training:
                                                   Our program has EHS [Early Head Start] in 5 rural counties and
                                                   getting staff together for any training event is difficult due to
                                                   distances that staff have to travel. We often get hotel rooms for
                                                   these staff members to come to trainings. This is an extra expense
                                                   to the program. The travel takes time and therefore time away
                                                   from work with children and families. Our in house component
                                                   trainers are also limited in making individualized visits to EHS
                                                   sites again due to travel, distance and time. One of our sites is
                                                   2 hours away from the central office and to get to this site it



          OEI-05-10-00240                M O S T E A R LY H E A D S TA R T T E A C H E R S H AV E   THE   REQUIRED CREDENTIALS BUT CHALLENGES EXIST   18
F   I   N   D I       N G    S


                                      requires traveling over a mountain which is not always safe in
                                      winter weather.




    OEI-05-10-00240         M O S T E A R LY H E A D S TA R T T E A C H E R S H AV E   THE   REQUIRED CREDENTIALS BUT CHALLENGES EXIST   19
R   E C   O M M E N D A T I O N S
       R E C O M M E N D A T I O N S

                      Overall, 81 percent of Early Head Start teachers had credentials that
                      were equivalent to or exceeded a CDA. Approximately one-third of
                      programs employed only teachers who met the education requirement
                      that all teachers have a minimum of a CDA. Nearly all programs
                      reported requiring teachers to complete training. However, most
                      reported challenges either to employing only teachers with the required
                      credentials or to training teachers. In particular, challenges related to
                      the lack of a workforce and, in rural areas, finding appropriate training.
                      To increase the percentage of programs that employed only teachers
                      with the required credentials and to help programs meet the
                      requirements, we make the following recommendations to ACF:
                      Work with Early Head Start programs to ensure that all teachers have the
                      required credentials
                      ACF should work to ensure that all Early Head Start programs employ
                      only teachers with the required credentials. ACF could pursue a variety
                      of options. For example, ACF could:
                      Provide additional support to Early Head Start programs that were newly
                      developed with Recovery Act funds. Teachers from new programs were
                      less likely to have credentials than teachers from preexisting programs.
                      Identify and share strategies used by programs that employed only teachers
                      with the required credentials. Approximately one-third of programs
                      employed only teachers with the required credentials. Their
                      experiences and strategies may be useful to programs that do not
                      employ only teachers with the required credentials.
                      Work with programs that employ teachers without the required credentials to
                      develop and implement an action plan. Approximately two-thirds of
                      programs did not employ only teachers with the required credentials.
                      ACF could work with programs to develop an action plan to ensure that
                      all teachers obtain the required credentials. This action plan may
                      include ensuring that all teachers without credentials are pursuing
                      them and that there is at least one credentialed teacher in each
                      classroom.
                      Provide guidance to programs about training teachers
                      ACF should develop guidance regarding training, which may include an
                      expected number of training hours or a list of suggested online
                      coursework. It may also include guidance on what needs to be done to
                      meet the training requirements for future teachers hired. Programs’
                      survey responses varied widely in the amount of training they provided


    OEI-05-10-00240   M O S T E A R LY H E A D S TA R T T E A C H E R S H AV E   THE   REQUIRED CREDENTIALS BUT CHALLENGES EXIST   20
R   E C     O    M    M   E    N D          A T         I    O      N     S


                          to teachers, with a range from 0 to 140 hours per year and a median of
                          15 hours per year. Further, ACF has not provided guidance to
                          programs regarding the amount of training that Early Head Start
                          teachers must have.
                          In addition, because 87 percent of programs identified at least one
                          challenge to training teachers, ACF’s guidance should include
                          suggestions for overcoming such challenges. This could include
                          compiling a list of teachers, training, or courses available online. ACF
                          could also work with programs to determine any lessons learned or
                          successful strategies that could be shared with other programs.
                          Particular attention should be paid to rural programs because
                          challenges to training teachers appeared to be more prevalent in rural
                          areas.


                          AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                          RESPONSE
                          ACF concurred with our recommendations. ACF described ongoing
                          initiatives to increase the number of Early Head Start teachers with
                          credentials, such as partnerships with educational institutions. It also
                          stated that it plans to issue an information memorandum in the
                          summer of 2011 to provide additional guidance for programs on teacher
                          credentials and qualifications. In addition, ACF stated that it could
                          provide guidance about teacher training, but that it could not require a
                          certain number of training hours without a regulatory change.
                          We encourage ACF to issue both the planned information memorandum
                          about teacher credentials and qualifications and guidance about teacher
                          training. We did not make any changes to the report based on ACF’s
                          comments. For the full text of ACF’s comments, see Appendix B.




    OEI-05-10-00240       M O S T E A R LY H E A D S TA R T T E A C H E R S H AV E   THE   REQUIRED CREDENTIALS BUT CHALLENGES EXIST   21
                      A P P E N D I X ~ A

                                         Estimates and Confidence Intervals

  Table A-1: Estimates of Teachers With the Required Credentials

                                                                                                                                                         95-Percent
  Estimate Description                                                                                     Sample Size         Percentage
                                                                                                                                                 Confidence Interval

  Teachers with the required credentials                                                                          3,799             81.1%              77.6%–84.6%

  Teachers from preexisting programs with the required credentials                                                3,257            82.5%*              78.7%–86.3%

  Teachers from new programs with the required credentials                                                          542             73.1%              65.6%–80.6%
* Actual result is 82.489 percent, which we rounded to 82.5 percent in this table and 82 percent in the findings.
Source: Office of Inspector General (OIG) analysis of Early Head Start teacher credentials, 2011.




  Table A-2: Estimates of Teachers by Type of Credential

                                                                                                                Sample                                  95-Percent
  Estimate Description                                                                                                         Percentage
                                                                                                                  Size                          Confidence Interval

  Teachers with a child development associate (CDA) credential                                                    3,799             21.4%             18.2%–24.6%
  Teachers with any degree (i.e., associate’s, bachelor’s, or advanced
                                                                                                                  3,799             44.6%             40.8%–48.5%
  degree)

  Teachers with alternative credentials                                                                           3,799             15.2%             11.4%–18.9%

  Teachers with no credentials                                                                                    3,799             18.9%             15.4%–22.4%

  Teachers with associate’s degrees                                                                               3,799             23.9%             20.8%–26.9%

  Teachers with bachelor’s degrees                                                                                3,799             18.8%             16.3%–21.3%

  Teachers with advanced degrees                                                                                  3,799              2.0%              1.5%–2.4%
Source: OIG analysis of Early Head Start teacher credentials, 2011.




             OEI-05-10-00240             M O S T E A R LY H E A D S TA R T T E A C H E R S H AV E   THE   REQUIRED CREDENTIALS BUT CHALLENGES EXIST      22
         A     P P      E    N    D I      X           ~          A




    Table A-3: Estimates of Teachers Pursuing Credentials

                                                                                                               Sample Size                                  Sample Size
                                                                         Percentage
                                                                                                                                 Percentage
                                                                         of Teachers
    Estimate Description                                                                                                              of All
                                                                             Without
                                                                                                              95-Percent           Teachers                 95-Percent
                                                                         Credentials
                                                                                                      Confidence Interval                           Confidence Interval

                                                                                                                       706                                         3,799
    Teachers who were pursuing credentials                                        56.4%                                               10.7%
                                                                                                            46.8%– 66.0%                                    8.1%–13.2%

                                                                                                                       706                                         3,799
    Teachers who were not pursuing credentials                                    43.6%                                                   8.3%
                                                                                                             34.0%–53.2%                                    5.8%–10.7%

                                                                                                                       706                                         3,799
    Teachers in the process of applying for CDAs                                  20.8%                                                   3.9%
                                                                                                             14.1%–27.4%                                     2.6%–5.3%

 Source: OIG analysis of Early Head Start teacher credentials, 2011.




    Table A-4: Estimates of Programs Hiring Only Teachers With Required Credentials

                                                                                                             Sample                                      95-Percent
    Estimate Description                                                                                                     Percentage
                                                                                                               Size                              Confidence Interval

    Programs that had only teachers with the required credentials                                                209             35.1%               29.2%–41.1%

    Programs that did not have only teachers with the required credentials                                       209             64.9%              58.9% –70.8%
 Source: OIG analysis of Early Head Start teacher credentials, 2011.




   Table A-5: Estimates of Programs With Teachers Who Had the Required Credentials

                                                                                                             Sample                                      95-Percent
   Estimate Description                                                                                                       Percentage
                                                                                                               Size                              Confidence Interval

   Programs in which the majority of teachers had the required credentials                                       209               88.8%             84.9%–92.7%

   Programs in which 76–99% of teachers had the required credentials                                             209               32.2%             26.3%–38.0%

   Programs in which 0–25% of teachers had the required credentials                                              209                3.2%               0.9%–5.5%

   Programs in which 0% of teachers had the required credentials                                                 209                1.0%               0.3%–3.4%

   Programs in which 26–50% of teachers had the required credentials                                             209                8.0%              4.7%–11.3%

   Programs in which 51–75% of teachers had the required credentials                                             209               21.5%             16.5%–26.6%
Source: OIG analysis of Early Head Start teacher credentials, 2011.




             OEI-05-10-00240             M O S T E A R LY H E A D S TA R T T E A C H E R S H AV E   THE   REQUIRED CREDENTIALS BUT CHALLENGES EXIST         23
     A   P P      E    N    D I     X           ~          A




Table A-6: Estimates of Survey Responses Regarding Teacher Credentials and
Training

                                                                                                      Sample                                  95-Percent
Estimate Description                                                                                                   Percentage
                                                                                                        Size                          Confidence Interval

Programs that require teachers to complete ongoing training                                               212               95.5%          92.9%–98.1%

Programs that require 15 hours of training per year                                                       184               40.0%          33.7%–46.4%
Programs that identified at least one challenge to having only teachers
                                                                                                           98               84.7%          77.9%–91.5%
with the required credentials

Programs that identified at least one challenge to training teachers                                      215               87.4%          83.3%–91.6%

Programs that could not find teachers with the required credentials                                        98               83.1%          76.1%–90.0%

Programs that reported finding substitutes as a challenge                                                 213               80.3%          75.3%–85.2%

Programs that reported managing work schedules as a challenge                                             213               66.0%          60.2%–71.9%
Programs that reported not having funds to pay teachers overtime to
                                                                                                          213               52.4%          46.2%–58.5%
attend training as a challenge
Programs that reported challenges to identifying trainers for infant and
                                                                                                          213               18.4%          14.2%–22.7%
toddler development in their areas
Rural programs that reported challenges to identifying trainers for infant
                                                                                                           95               34.3%          26.8%–41.9%
and toddler development in their areas
Urban programs that reported challenges to identifying trainers for
                                                                                                          118               10.6%           5.5%–15.7%
infant and toddler development in their areas

Rural programs that reported finding substitutes as a challenge                                            95               80.1%          73.8%–86.5%

Urban programs that reported finding substitutes as a challenge                                           118               80.3%          73.7%–87.0%

Rural programs that reported managing work schedules as a challenge                                        95               71.1%          63.8%–78.3%

Urban programs that reported managing work schedules as a challenge                                       118               63.5%          55.6%–71.5%
Rural programs that reported not having funds to pay teachers overtime
                                                                                                           95               58.5%          50.6%–66.4%
to attend training as a challenge
Urban programs that reported not having funds to pay teachers
                                                                                                          118               49.4%          41.1%–57.7%
overtime to attend training as a challenge
Programs that reported finding appropriate training programs as a
                                                                                                          210               30.2%          24.8%–35.6%
challenge
Rural programs that reported finding appropriate training programs as a
                                                                                                           93               44.4%          36.3%–52.4%
challenge
Urban programs that reported finding appropriate training programs as
                                                                                                          117               23.3%          16.3%–30.3%
a challenge
Programs that reported not having funds to pay outside trainers as a
                                                                                                          211               22.5%          17.6%–27.4%
challenge
Rural programs that reported not having funds to pay outside trainers
                                                                                                           93               34.2%          26.5%–41.9%
as a challenge
                                                                                                                                      continued on next page




         OEI-05-10-00240          M O S T E A R LY H E A D S TA R T T E A C H E R S H AV E   THE   REQUIRED CREDENTIALS BUT CHALLENGES EXIST      24
        A    P P      E    N    D I     X           ~          A




  Table A-6: Estimates of Survey Responses Regarding Teacher Credentials and
  Training (Continued)

                                                                                                          Sample                                  95-Percent
  Estimate Description                                                                                                     Percentage
                                                                                                            Size                          Confidence Interval

  Urban programs that reported not having funds to pay outside trainers
                                                                                                              118               16.9%         10.6%–23.1%
  as a challenge
  Programs that reported challenges to identifying trainers for early
                                                                                                              213               11.7%          8.3%–15.1%
  childhood development
  Rural programs that reported challenges to identifying trainers for early
                                                                                                               95               24.2%         17.3%–31.0%
  childhood development
  Urban programs that reported challenges to identifying trainers for
                                                                                                              118                5.6%              1.7%–9.4%
  infant and toddler development in their areas
  Programs that reported trainers’ refusal to travel to their areas as a
                                                                                                              207                9.6%          6.3%–13.0%
  challenge
  Rural programs that reported trainers’ refusal to travel to their areas as
                                                                                                               92               17.2%         11.1%–23.3%
  a challenge
  Urban programs that reported trainers’ refusal to travel to their areas as
                                                                                                              115                5.9%              2.0%–9.9%
  a challenge
Note: The number of respondents varies because survey respondents did not answer every question.
Source: OIG analysis of program survey responses, 2011.




            OEI-05-10-00240           M O S T E A R LY H E A D S TA R T T E A C H E R S H AV E   THE   REQUIRED CREDENTIALS BUT CHALLENGES EXIST      25
       A P PEN 0                        x - B

     Agency Comments



                     DEPARTMENT OF HEALTH &. HUMAN SERVICES


                                                                         ADMINISTRATION FOR CHILDREN AND FAMILIES
                                                                         Office of the Assistant Secretary, Suite 600
                                                                         370 L'Enfant Promenade, S.W.
                                                                         Washington, D.C..20447



                                   JUN 1 52011



                  TO:           Daniel R. Levinson
                                Inspector General

                  FROM:         David A. Hansell
                                                   /S/
                                Acting Assistant Secretary
                                  for Children and Families

                  SUBJECT:      Office of Inspector General (OIG) Draft Report titled, "Most Early Head
                                Start Teachers Have the Required Credentials, But Challenges Exist"
                                (OEI-05-10-00240)


                  Attached is the Administration for Children and Families comments on the above-referenced
                  OIG draft report.

                  Should you have questions or need additional infonnation, please contact Yvette Sanchez
                  Fuentes, Director, Office of Head Start, at 202-205-8573.

                  Attachment




OEI·05·10·00240         MOST EARLY HEAD START TEACHERS HAVE THE REQUIRED CREDENTIALS BUT CHALLENGES EXIST               26
A   P P     E   N     D I     X           ~          B




    OEI-05-10-00240         M O S T E A R LY H E A D S TA R T T E A C H E R S H AV E   THE   REQUIRED CREDENTIALS BUT CHALLENGES EXIST   27
A   P P     E   N     D I     X           ~          B




    OEI-05-10-00240         M O S T E A R LY H E A D S TA R T T E A C H E R S H AV E   THE   REQUIRED CREDENTIALS BUT CHALLENGES EXIST   28
A   P P     E   N     D I     X           ~          B




    OEI-05-10-00240         M O S T E A R LY H E A D S TA R T T E A C H E R S H AV E   THE   REQUIRED CREDENTIALS BUT CHALLENGES EXIST   29
A   P P     E   N     D I     X           ~          B




    OEI-05-10-00240         M O S T E A R LY H E A D S TA R T T E A C H E R S H AV E   THE   REQUIRED CREDENTIALS BUT CHALLENGES EXIST   30
      A C K N O W L E D G M E N T S


                  This report was prepared under the direction of Ann Maxwell, Regional
                  Inspector General for Evaluation and Inspections in the Chicago
                  regional office, and Thomas F. Komaniecki, Deputy Regional Inspector
                  General.
                  Nicole Hrycyk served as the team leader for this study. Beth McDowell
                  served as the lead analyst. Other principal Office of Evaluation and
                  Inspections staff from the Chicago regional office who contributed to the
                  report include Ericka Kilburn and Margarita Rodriguez; other central
                  office staff who contributed include Talisha Searcy and Kevin Farber.




OEI-05-10-00240   M O S T E A R LY H E A D S TA R T T E A C H E R S H AV E   THE   REQUIRED CREDENTIALS BUT CHALLENGES EXIST   31
                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health & Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
